HHS/OIG - Audit, "Review of Ryan White Title I Funds Claimed by the Heartland AIDS Resource Council (HARC) During the Three Fiscal Years Ended February 28, 2001," (A-07-02-00147)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Ryan White Title I Funds Claimed by the Heartland AIDS Resource
Council (HARC) During the Three Fiscal Years Ended February 28, 2001,"
(A-07-02-00147)
October 11, 2002
Complete
Text of Report is available in PDF format (601 KB). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether Heartland AIDS
Resource Council (HARC) implemented its Ryan White program activities and claimed
costs in accordance with Federal guidelines during the three fiscal years ended
February 28, 2001.  We
found that HARC overstated the number of benefiting clients by up to 400 percent
during the audit period.  By over reporting the total clients benefiting
from the program, the Health Resources and Services Administration (HRSA) and
ultimately Congress based its funding decisions on inaccurate data.  Overall,
we found HARCs expenditures were appropriate, with the exception of $15,000
of reimbursement that could not be justified by expenses recorded in the accounting
records.  We are recommending that HARC (1) establish procedures to accurately account
for and report the actual number of unduplicated clients served, (2) reimburse
the Federal Government $15,000, and (3) strengthen controls to ensure expenditures
submitted for reimbursement are supported in its accounting system.  The
HARC concurred with all of our findings and recommendations.